         FEDERAL HOUSING FINANCE AGENCY
           OFFICE OF INSPECTOR GENERAL

         FEDERAL HOUSING FINANCE AGENCY
           OFFICE OF INSPECTOR
           FHFA’s Supervisory     GENERAL
                              Framework for
                  Federal Home Loan Banks’
         Advances and Collateral Risk Management




AUDIT REPORT: AUD-2012-004                   DATED: June 1, 2012
                                                      AT A GLANCE
                   FHFA’s Supervisory Frameworktitle
                                                for the Federal Home Loan Banks’
                             Advances and Collateral Risk Management
Why FHFA-OIG Did This Audit                                        What FHFA-OIG Found
The Federal Housing Finance Agency (FHFA or Agency) is             title
                                                                   Although FHFA has taken steps to mitigate risk at FHLBanks related to
                                                                   title
the supervisor and regulator of the Federal Home Loan Bank         advances and collateral, it can strengthen its supervisory framework
system. The system is comprised of the 12 Federal Home             for the FHLBanks’ risk management practices. FHFA’s mitigation
Loan Banks (FHLBanks) and the Office of Finance. The               efforts include regular, onsite, annual examinations and the use of
FHLBanks are organized as regionally based cooperatives,           offsite monitoring. For example, in 2009, FHFA completed two
comprised of member banks that are regulated by federal            reviews concerning collateral management practices. The first review,
banking agencies (FBAs), such as the Federal Deposit               a horizontal (i.e., system-wide) review of FHLBanks, included
Insurance Corporation (FDIC).                                      recommendations to ensure that FHFA and FHLBanks implement
                                                                   corrective actions to address identified collateral management risks.
The FHLBanks extend loans, called advances, to member              The other review included a suggestion that FHLBanks reassess
banks. Between September 2008 and September 2011, the              business plans that rely on troubled (otherwise referred to as problem)
FHLBank system’s combined outstanding advances                     member banks for growth in advances.
decreased from over $1 trillion to approximately                   FHFA-OIG believes that FHFA’s recommendations and its suggestion
$415 billion. The decrease was due in part to many member          merit consideration. However, as of December 2011, FHFA had
banks’ financial deterioration and failure. FHLBank                implemented only one of seven recommendations from its horizontal
members with outstanding advances constituted many of the          review that concerned problem member banks. Six recommendations
800 problem and 399 failed banks that FDIC reported in             remain unimplemented. Also, the other review’s suggestion remains
September 2011.                                                    unimplemented.
Advances must be secured by collateral to protect the              The sole recommendation that FHFA implemented is important and
security interest of the lending FHLBank. FHLBanks have a          pertains to ensuring that FHLBanks take corrective actions regarding
claim on the collateral of failed member banks with                collateral management deficiencies that the Agency identifies during its
outstanding advances and historically have not experienced         examinations. In spite of the importance of the recommendation,
losses on their advances. However, when a member bank              however, FHFA does not adequately document its examination
fails, its chartering agency closes the institution and appoints   follow-up activities so that it can accurately assess FHLBanks’
FDIC as receiver to resolve the failure. This resolution           corrective actions.
process includes outstanding advances either being repaid or       The six recommendations that FHFA has not implemented are also
assumed by an acquirer of the failed member bank’s assets,         important and include updating the Agency’s examination guidance for
which effectively shields FHLBanks from losses on their            collateral reviews; providing guidance to FHLBanks about effective
advances to member banks that have FDIC insured deposits.          collateral risk management; and offering relevant training to FHFA
                                                                   examiners. Agency officials acknowledged the importance of
The FHFA Office of Inspector General (FHFA-OIG) initiated          considering these recommendations for implementation, but, as of
this audit to assess FHFA’s supervisory framework related to       December 2011, FHFA had not approved an implementation plan or
FHLBanks’ advances and collateral risk management practices        schedule for the outstanding recommendations.
for problem member banks.
                                                                   FHFA-OIG also found that FHFA does not have access to data that
                                                                   could enable it to better assess advance and other risks posed to the
What FHFA-OIG Recommends                                           FHLBanks. For example, FHFA does not avail itself of existing access
                                                                   agreements or request that FDIC and other FBAs provide it with
FHFA-OIG recommends that FHFA implement its
                                                                   copies of examination reports for problem member banks.
outstanding review recommendations, strengthen its
                                                                   Additionally, FHFA does not maintain a central listing of problem
supervisory framework, enhance its coordination with other         member banks identified by FHLBanks. FHFA would have greater
FBAs, and improve its oversight of problem member banks.           insight into the risks posed to the FHLBanks by problem members
FHFA agreed with FHFA-OIG’s recommendations.                       through greater access to regulatory information.

Audit Report: AUD-2012-004                                                                                     Dated: June 1, 2012


Evaluation Report: EVL-2012-XX                                                                            Dated: Month XX, 2012
TABLE OF CONTENTS
TABLE OF CONTENTS ................................................................................................................ 3
ACRONYMS/ABBREVIATIONS................................................................................................. 5
PREFACE ....................................................................................................................................... 6
BACKGROUND ............................................................................................................................ 7
      Overview of the FHLBank System.......................................................................................... 7
             Credit Risk ........................................................................................................................ 9
             Collateral ........................................................................................................................ 10
      FHFA’s Oversight of the FHLBanks ..................................................................................... 11
             Statutory and Regulatory Authorities ............................................................................. 11
             Annual Examinations ..................................................................................................... 13
             Horizontal Review .......................................................................................................... 14
             Commercial Bank and Thrift Member Performance Study ........................................... 17
      Oversight of FHLBanks’ Member Banks .............................................................................. 19
             Generally ........................................................................................................................ 19
             FHFA’s Coordination with the Federal Banking Agencies ........................................... 20
             Role of FDIC .................................................................................................................. 20
             Potential Impact on the DIF ........................................................................................... 21
             Examples of FDIC Activities Affecting FHLBanks ...................................................... 21
             Role of FFIEC ................................................................................................................ 23
             Global Watch-lists of Problem Member Banks.............................................................. 23
FINDINGS .................................................................................................................................... 26
             Horizontal Review .......................................................................................................... 26
             Commercial Bank and Thrift Member Performance Study ........................................... 32
CONCLUSION ............................................................................................................................. 34
RECOMMENDATIONS .............................................................................................................. 35
SCOPE AND METHODOLOGY ................................................................................................ 36
GLOSSARY OF TERMS ............................................................................................................. 39

              Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                                        3
APPENDIX A: FHFA’S MANAGEMENT RESPONSE TO FINDINGS AND
RECOMMENDATIONS .............................................................................................................. 41
APPENDIX B: FHFA-OIG’S RESPONSE TO FHFA’S COMMENTS .................................... 45
APPENDIX C: SUMMARY OF FHFA’S MANAGEMENT COMMENTS TO THE
RECOMMENDATIONS .............................................................................................................. 46
ADDITIONAL INFORMATION AND COPIES ........................................................................ 49




             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                               4
ACRONYMS/ABBREVIATIONS
CDFIs .................................................................... Community Development Financial Institutions

DBR ................................................................... Division of Federal Home Loan Bank Regulation

DIF .............................................................................................................. Deposit Insurance Fund

Examination Manual ............. Federal Housing Finance Board Examination Manual (April 2007)

FBAs ....................................................................................................... Federal Banking Agencies

FDIC ................................................................................... Federal Deposit Insurance Corporation

Bank Act ........................................................................................... Federal Home Loan Bank Act

FFIEC ...............................................................Federal Financial Institutions Examination Council

FHFA or Agency.......................................................................... Federal Housing Finance Agency

FHFA-OIG ..................................... Federal Housing Finance Agency, Office of Inspector General

FHFB...............................................................................................Federal Housing Finance Board

FHLBank.................................................................................................. Federal Home Loan Bank

FHLBB .......................................................................................... Federal Home Loan Bank Board

HERA.......................................................................Housing and Economic Recovery Act of 2008

MOUs ................................................................................................ Memoranda of Understanding

OCC ............................................................................... Office of the Comptroller of the Currency

PLMBS ......................................................................... Private-Label Mortgage Backed Securities

ROE............................................................................................................... Report of Examination




             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                                   5
                                       Federal Housing Finance Agency

                                           Office of Inspector General

                                                 Washington, D.C.


                                                 PREFACE
FHFA-OIG was established by the Housing and Economic Recovery Act (HERA),1 which
amended the Inspector General Act of 1978.2 With respect to FHFA’s programs and operations,
FHFA-OIG is authorized to: conduct audits, investigations, and other activities; recommend
policies that promote effective and efficient administration; and prevent and detect fraud and
abuse.

The objective of this performance audit was to assess FHFA’s supervisory framework related to
FHLBanks’ advances and collateral risk management practices for institutions that present
heightened supervisory concern. The audit found that FHFA needs to improve its framework.
Although FHFA conducted a system-wide horizontal review of secured credit at FHLBanks and
an internal study that identified numerous significant risks, the Agency did not take sufficient
steps to ensure that FHLBanks effectively managed risks posed by member banks that
represented heightened supervisory concern.3 Further, FHFA-OIG determined that the Agency
should take additional steps to enhance its coordination with FBAs that are responsible for
supervising and regulating FHLBanks’ members.

FHFA-OIG believes that the recommendations contained in this report will help the Agency
achieve more economical, effective, and efficient operations. FHFA-OIG appreciates the
assistance of all those who contributed to the audit.

This audit was led by Laura Roberson, Audit Manager. Additionally, this report has been
distributed to Congress, the Office of Management and Budget, and others, and will be posted on
FHFA-OIG’s website: http://www.fhfaoig.gov.



Russell A. Rau
Deputy Inspector General for Audits

1
    Public Law No. 110-289.
2
    Public Law No. 95-452.
3
  A horizontal review is a system-wide review FHFA conducts periodically that focuses on specific activities,
functions, or programs. (See “Horizontal Review” section in the Background for more detail.)


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                            6
BACKGROUND
Overview of the FHLBank System4

On July 30, 2008, HERA established FHFA as the supervisor and regulator of the FHLBank
system. FHFA’s mission is to promote FHLBanks’ safety and soundness, support housing
finance and affordable housing goals, and facilitate a stable and liquid mortgage market.
Collectively, 12 FHLBanks5 and the Office of Finance comprise the FHLBank system, which
was established in 1932 by the Federal Home Loan Bank Act (Bank Act).6 The system
facilitates the extension of mortgage credit and the housing finance market.

FHLBanks are regionally based cooperatives, and member institutions are exclusively the
owners and shareholders of their respective FHLBank. FHLBank membership is limited to
regulated depository financial institutions (i.e., commercial banks, credit unions, and thrifts),
insurance companies, and community development financial institutions (CDFI) that are engaged
in housing finance in the United States.7

To carry out their mission and core business function, FHLBanks loan money to their members
through secured transactions called advances (i.e., loans).8 Advances are usually over-
collateralized to protect the security interest of the lending FHLBank. Figure 1 below illustrates
how FHLBanks and the Office of Finance support housing finance—from issuing debt to
investors to originating home loans for homeowners.




4
 For more information regarding the organization and functions of FHLBanks, see FHFA’s Oversight of Troubled
Federal Home Loan Banks (January 2012), available at: http://www.fhfaoig.gov/Content/Files/Troubled%
20Banks%20EVL-2012-001.pdf.
5
 The 12 FHLBanks are located in: San Francisco, CA; Atlanta, GA; New York, NY; Boston, MA; Pittsburgh, PA;
Cincinnati, OH; Des Moines, IA; Dallas, TX; Topeka, KS; Chicago, IL; Indianapolis, IN; and Seattle, WA.
6
    Public Law No. 72-304.
7
 The Bank Act, as amended by HERA § 1206, expressly authorizes certified CDFIs to become members. On
January 5, 2010, FHFA published a final rule that authorizes CDFIs to become members of FHLBanks.
8
 FHLBanks fund their lending operations primarily through the sale of debt securities, known as consolidated
obligations, through the Office of Finance.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                            7
           Figure 1: Advances & Collateral Process Flows for the FHLBank System9




              The 12 FHLBanks are              FHLBanks serve the general public by
                                               providing readily available, low-cost       FHLBanks fund their
              government-sponsored                                                         operations principally through
              enterprises (GSEs) organized     funding to over 7,700 members, thereby
                                               increasing the availability of credit for   the sale of debt securities
              under an act of Congress                                                     through the Office of Finance
              (Federal Home Loan Bank Act      residential mortgage lending and
              of 1932)                         investment in housing and community
                                               development



According to the Office of Finance, advances are FHLBanks’ largest category of assets.
Between June 2005 and September 2008, FHLBanks’ advances to members increased from
$616 billion to over $1 trillion in response to the liquidity needs of members. However, as of
September 2011, the amount of FHLBanks’ advances had decreased to approximately
$415 billion. This decline was due to the reduction in demand for advances because of the
housing market’s deterioration and member banks having lower cost funding options,
particularly retail deposits. In addition, this substantial decrease was, in part, due to an increase
in financial institution failures, voluntary or forced consolidations, and membership withdrawals.
FHFA and one of its predecessors, the Federal Housing Finance Board (FHFB), expressed
concerns about whether FHLBanks could manage rapid, substantial decreases in advances.

Overall, FHLBank membership has fluctuated but ultimately has declined from 8,113 members
in December 2006 to 7,758 members in September 2011.10 Commercial banks, thrifts, and credit
unions represent the majority of the member institutions. Of the September 2011 membership,
4,775 had recent outstanding FHLBank advances as shown below in Figure 2.




9
 Source: material provided by the Office of Finance from its presentation at FHFA-OIG’s Audit Conference on
November 3, 2011.
10
  FHFA reports that 85% of banks and thrifts are members of FHLBanks, and that there is a strong correlation
between the condition of U.S. banks and thrifts, generally, and the condition of FHLBank members.


            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                              8
               Figure 2: FHLBank System Outstanding Advances by Member Type11
                                                       December 2007                     September 2011
                   Member Type                          ($ Millions)                       ($ Millions)
                                                   Number           Advances         Number           Advances
          Commercial Banks                            4,232          $453,593           3,511          $200,911
          Thrifts                                       941           339,424             768            92,462
          Credit Unions                                 432            32,368             395            23,741
          Insurance Companies                            52            28,672             101            46,388
          Totals                                      5,657          $854,057           4,775          $363,502


           Credit Risk

In carrying out their core business function, FHLBanks assume various types and degrees of risk
and implement risk management processes—including monitoring member banks—to mitigate
those risks. Credit risk is the potential that a borrower or counterparty will fail to meet its
obligations in accordance with agreed terms. This risk is mitigated by implementing controls
such as: (1) establishing an appropriate credit risk management environment that includes credit
strategies and credit and collateral policies and procedures; and/or (2) maintaining an effective
credit administration process that includes continuous monitoring of counterparty member
relationships.

According to FHFA’s 2010 Annual Report to Congress, credit risk specifically associated with
advances has increased because of financial stress at FHLBanks’ member institutions.12 For
example, in 2009, the FHLBanks of San Francisco and Atlanta were ranked as “supervisory
concerns” for credit risk and they had: (1) among the highest advance balances; and (2) were
respectively ranked first and third for having the most members that present heightened
supervisory concern.13

Advance growth and collateral quality are among several factors that affect credit risk.
However, other factors may mask or distort the impact of collateral and advances on credit risk.
For instance, FHLBanks have not incurred losses on advances and that is indicative of lower



11
     Source: data obtained from FHFA’s membership listing tables but does not include information on CDFIs.
12
     Available at: http://www.fhfa.gov/webfiles/21572/FHFA2010_RepToCongress6%2013%2011.pdf.
13
  FHFA-OIG defines banks that present heightened supervisory concern as: (a) those that had adverse internal
member ratings (typically a rating of 7 or higher on a scale of 10 representing the highest concern); regulatory
banking agency ratings of 3 to 5 based on CAMELS, which measures a bank’s overall condition (see “Glossary of
Terms” for a more detailed definition); deteriorating financial condition, and/or formal enforcement actions; or high
levels of advance concentrations; and (b) those that had been identified by an FHLBank or FHFA as being of
supervisory concern. For reporting purposes, these banks are identified as problem or troubled.

              Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                            9
credit risk. Yet, this condition is at least partly influenced by the manner in which FDIC resolves
failed banks and incurs related losses.14

           Collateral

Advances must be fully secured by eligible collateral. The Bank Act and FHFA regulations
require each FHLBank to maintain a security interest in, or lien on, eligible collateral pledged by
the member bank receiving an advance. These secured interests protect FHLBanks should
member banks default or fail.15 Because of the secured interests, if a member bank were to fail
or default, the lending FHLBank would be able to liquidate the collateral and recover the amount
of any outstanding advances.

The types of collateral accepted as security include, but are not limited to: cash deposits held by
FHLBanks, residential mortgage loans, private-label mortgage backed securities (PLMBS), and
U.S. Department of the Treasury securities. FHLBanks are also authorized to accept alternative
forms of collateral, such as agricultural and small business loans.

To assist FHLBanks in managing the risks associated with collateral used for securing advances,
their policies, procedures, and practices include a minimum of three designations of collateral
status, as follows:

               Blanket Lien. Under this status, an individual FHLBank allows a member to keep
                eligible collateral pledged to the FHLBank, provided the member executes a written
                security agreement and agrees to hold the collateral for the FHLBank’s benefit. The
                blanket lien status is typically accepted by FHLBanks only for loan collateral; most
                securities collateral must be physically delivered to the FHLBank (or a third-party
                custodian it approves) and pledged to the benefit of the applicable FHLBank.

               Listing. This category is generally for those institutions that have a higher risk
                profile than institutions with blanket lien collateral. Listing requires the member
                bank to provide more information to the FHLBank about its collateral. This category
                allows the FHLBank to assess more easily the type and quality of loans the member
                bank is pledging as collateral.

               Delivery. This status is the most stringent collateral status. Under it, FHLBanks
                require the member bank to deliver collateral to the FHLBank or to a third-party
                custodian. It allows the FHLBank to have full control of the collateral or to have the

14
  For example, in order to obtain clear title to a failed bank’s collateral, FDIC may pay off the advances made to the
bank in full regardless of the value of the collateral. Based on FHFA-OIG’s inquiries of FDIC and FHLBanks,
losses on collateral pledged in support of advances made to failed banks are not separately tracked.
15
     A bank fails when its chartering agency revokes its banking charter.

               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           10
               member bank secure the collateral in a vault. Delivery status is generally the highest-
               risk profile for member banks and allows FHFA to review loan files in order to assess
               the quality of underwriting and their compliance with FHLBank collateral
               requirements.

If a member’s financial condition deteriorates, the collateral status normally becomes more
stringent and increases from blanket lien to listing to delivery. However, according to FHFA,
listing and delivery methods have been used to increase borrowing capacity for healthy members
without the need to pledge additional collateral.

In addition, to assist FHLBanks in mitigating the heightened credit risk affecting advances and to
protect their security interests, one option they have employed is to apply “haircuts” to the
collateral (i.e., protective reductions in borrowing capacity relative to the value of the collateral).
Collateral haircuts are generally adjusted depending on the quality of the pledged assets and the
financial condition of a member. Depending on the member’s credit status, an FHLBank will
typically provide advances worth only a percentage of the value of the collateral pledged by the
member bank; the discounted percentage is the “haircut.” This results in advances being over-
collateralized at the time they are made.

FHLBanks use information from member banks’ FBAs to assess their financial condition and to
make determinations regarding their credit risk profiles. This information includes examination
results; financial information; CAMELS ratings, which measure a bank’s overall condition; and
formal and informal supervisory actions.16 FHLBank determinations affect the member’s
borrowing capacity, collateral status, and internal member rating.17 FHLBanks can also perform
additional collateral verification, such as detailed loan reviews and collateral warehouse visits.18

FHFA’s Oversight of the FHLBanks

           Statutory and Regulatory Authorities

Effective July 30, 2008, HERA transferred supervisory and oversight responsibilities for the
FHLBank system from FHFB to FHFA. The Division of Federal Home Loan Bank
Regulation (DBR) is the principal organizational unit within FHFA responsible for supervising

16
     For a detailed definition of CAMELS rating, see “Glossary of Terms.”
17
  In general, FHLBanks’ internal member ratings range on a scale of increasing concern from 1 to 10. For member
banks that are low risk (i.e., rated 1 to 3), their collateral is ordinarily carried under blanket lien status. As a
member’s financial condition deteriorates and credit risk increases, the institution is placed on a watch-list to be
closely monitored to ensure that the collateral pledged against current and future advances is adequate. The
collateral status for these members is adjusted to protect FHLBanks’ security interest.
18
   A collateral warehouse is an FHLBank owned or approved third-party custodian that stores the collateral when it
is delivered by a member bank.


              Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           11
and examining FHLBanks. DBR assesses FHLBanks through annual examinations; periodic
visits; offsite monitoring; key financial data analysis; and review of other indicators, such as
credit concentrations, member bank performance, and compliance with laws and regulations.19

FHFA is required by statute to examine FHLBanks annually to ensure their financial safety and
soundness.20 FHFA may also conduct other examinations, such as system-wide horizontal
reviews, as it deems necessary. DBR develops supervisory plans to provide management
oversight, direction, and support for all examination activity involving FHLBanks, including
development of supervision findings and annual Reports of Examination (ROE) preparation.

FHFA also has the authority to impose formal enforcement actions and may take informal
supervisory action to address concerns and to effect corrective actions by FHLBanks. The
Federal Housing Enterprises Financial Safety and Soundness Act of 199221 provides guidance to
FHFA regarding formal enforcement actions—specifically cease and desist orders, temporary
cease and desist orders, civil money penalties, and removal authorities.22 In addition, according
to FHFA’s Examination Manual, the Agency may also recommend or take informal action,
including: (1) Board of Directors’ resolutions; (2) memoranda of understanding; and (3) written
agreements.23

FHFA is also required to establish prudential management and operational standards that address
10 separate areas relating to the management and operation of FHLBanks and the Enterprises.
These standards must address the consequences if the regulated entities fail to comply with
applicable guidance. Two of the standards, overall risk management processes and credit and




19
  Under 12 CFR § 1263.27, the board of directors for each FHLBank can terminate the membership of any
institution that: (1) fails to comply with any requirement of the Bank Act, any regulation adopted by FHFA, or any
requirement of the Bank’s capital plan; (2) becomes insolvent or otherwise subject to the appointment of a
conservator, receiver, or other legal custodian under federal or state law; or (3) would jeopardize the safety or
soundness of its FHLBank if it were to remain a member.
20
     12 U.S.C. § 4517.
21
     Public Law No. 102-550.
22
  FHFA has prompt corrective action authority over FHLBanks so that specific mandatory or discretionary
supervisory actions and restrictions under that statute would apply to any FHLBank that the Agency determines is
undercapitalized, significantly undercapitalized, or critically undercapitalized. The general purpose for the prompt
corrective action framework is to supplement FHFA’s other regulatory and supervisory authority and to provide for
timely and, in some situations, mandatory intervention by the regulator.
23
   According to the Federal Housing Finance Board Examination Manual (April 2007), if FHFA determines not to
issue a supervisory or enforcement action against an FHLBank, it may issue a “No Action Letter,” which states that
FHFA will not recommend a supervisory or enforcement action for an FHLBank’s failure to comply with a specific
provision of the Bank Act or FHFB rule, regulation, policy, or order, provided that the FHLBank undertakes the
proposed transaction or activity.


              Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           12
counterparty risk management practices, have specific applicability to advances and collateral
risk management.24

         Annual Examinations

Annual examinations are an integral part of a multi-step process that helps FHFA supervise
FHLBanks. FHFA’s examination regimen uses a risk-based approach that focuses on five key
components: market risk; credit risk; operational risk; corporate governance; and financial
performance. FHFA evaluates FHLBank advances and collateral management practices as part
of the credit risk component. The Agency’s Examination Manual outlines the actions that
examiners should take to assess risks associated with secured credit, such as advances. The
examination results are communicated to the FHLBank’s management and boards of directors
through ROEs and other means such as exit conferences and finding memoranda.

Beginning in 2007, widespread economic decline resulted in financial deterioration among many
FHLBank members. This deterioration adversely impacted a majority of the FHLBanks and
their examination results. Specifically, FHFA’s examination results since 2007 have identified
several weaknesses and risks related to advances, collateral, problem member banks, and
investment decisions.25 As a result, FHFA has reported significant declines to a majority of
FHLBanks’ credit risk component ratings over the last several years. One such declining
component relates to advances and collateral management.

FHFA-OIG reviewed the results of FHFA’s 2007 through 2010 examinations and offsite
monitoring activities for two of the FHLBanks: Atlanta and San Francisco. FHFA-OIG
determined that, through FHFA’s supervisory efforts, the Agency and its predecessor, FHFB,
identified risks over the last decade related to FHLBank advances and collateral risk
management practices, and noted that an increasing number of their member banks presented
heightened supervisory concern. In addition, examiners issued findings and recommendations
requiring the two FHLBanks to address particular weaknesses. In one case, examiners
recommended an informal enforcement action that addressed the weaknesses identified. The
examiners also performed follow-up activities to determine whether: (1) FHLBanks had taken


24
  The other eight areas required to be addressed by prudential standards include: internal controls and information
systems; internal audit systems; interest rate risk; market risk; liquidity and reserves; growth in assets and
investment portfolio; and records that allow an accurate assessment of the institution’s financial condition. FHFA
published proposed rules on the prudential management and operations standards in the Federal Register on
June 20, 2011. The official comment period closed on August 19, 2011. As of March 21, 2012, no final rule has
been issued.
25
  In the mid-2000s, several FHLBanks also increased their PLMBS purchasing. For many FHLBanks, this
investment strategy: (1) significantly increased their risk profiles by adversely influencing their secured credit
component ratings; and (2) impacted other operations such as earnings and governance.


            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           13
appropriate corrective action to address examiner recommendations; and (2) previously reported
risks and findings still existed.26

As the financial crisis intensified in 2007 and 2008, the examination results documented in
annual ROEs reflected additional focus on risks presented by the deteriorating financial
condition of the members included on FHLBanks’ watch-lists and large member bank advance
concentrations.27 This additional focus was particularly prevalent during the 2008 and
2009 examination cycles as discussed in the following section.

         Horizontal Review

To supplement the annual examinations of each FHLBank, FHFA periodically conducts system-
wide reviews that focus on specific activities, functions, or programs. The reviews are
commonly referred to as horizontal reviews. In 2007, due to differences in FHLBanks’ collateral
valuation methodologies, FHFA’s predecessor identified the need to conduct a horizontal review
of secured credit, including advances and collateral risk management practices.

FHFA conducted the horizontal review during the 2008 and 2009 examination cycles, and
examiners identified numerous significant findings regarding FHLBanks’ policies, procedures,
and practices relating to advances and collateral risk management. The examiners’ findings were
classified as unsafe or unsound practices, weaknesses, or recommendations.28 Specifically,
examiners reviewed six areas as follows.29




26
  FHFA examiners recommended that the San Francisco FHLBank adopt a board resolution. Based on the
examiners’ follow-up activities in the 2011 examination, FHFA concluded that the bank had complied with this
recommendation.
27
  Each FHLBank maintains a watch-list of member banks identified as presenting heightened supervisory concern.
This list can include information about a member bank’s collateral, advances, internal member ratings, and other
information from the member’s primary federal regulator.
28
  An unsafe or unsound practice is any action or inaction that is contrary to prudent operation and that has
resulted in, or if continued could result in, abnormal loss or risk or damage to an FHLBank or the Office of Finance.
Immediate corrective action is required for such practices. An FHLBank’s condition need not deteriorate to the
brink of insolvency before a practice or condition may be found to be unsafe or unsound. A weakness is an
inadequate or otherwise unacceptable policy, procedure, or practice, or a lack of sufficient internal controls or risk
management. Weaknesses require corrective action. A recommendation is a suggested change to a policy,
procedure, practice, or control to improve performance or operations. See “Glossary of Terms.”
29
  The horizontal review was conducted at 11 of 12 FHLBanks. According to FHFA officials, the Chicago
FHLBank horizontal review results were not finalized due to unforeseen circumstances. In addition to the six areas
discussed in this section, the horizontal review also included assessing risk limits. To control risks, FHLBanks
employ limits on the volumes and types of collateral they will accept, or limits on the volume of advances they will
provide to members. Examiners determined that of the 11 FHLBanks included in the horizontal review, only 1 had
inadequate risk limits because it had not established limits on advances at the time of the review.


            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           14
             Member Bank Monitoring. FHLBanks are entitled to monitor their member banks
              onsite and offsite. This requires FHLBanks to implement effective monitoring
              policies, procedures, and practices that assist them in identifying and addressing risks
              among their member institutions. In spite of these access rights, the horizontal review
              indicated that FHLBanks’ monitoring activities were in need of significant
              improvement, such as monitoring members to assess their financial condition and
              their underwriting quality for collateral pledged to FHLBanks. Examiners issued
              29 findings in this area, which were classified as 2 unsafe or unsound practices,
              23 weaknesses, and 4 recommendations.

             Member Bank Failure Plans. The need for FHLBanks to develop and monitor
              adequate failure plans related to their members became apparent during the recent
              economic downturn as the number of bank failures escalated. As these events
              showed, member banks most often failed due to capital shortfalls although more
              sudden liquidity failures also occurred. In these cases, FHLBanks relied on FDIC or
              another receiver to pay or arrange for assumption of a member’s advances at the time
              of failure. Although examiners expected FHLBanks to have well written, executable,
              and thoroughly tested member failure plans, they found that only one FHLBank had
              an adequate plan. The various deficiencies that examiners identified relative to the
              other 10 member failure plans included the lack of: (1) scenario analyses; (2) plan
              testing; (3) plan finalization; and (4) board of directors’ approval. Several of these
              deficiencies had been noted in previous examinations. Examiners issued 10 findings
              in this area, which were classified as 6 weaknesses and 4 recommendations.

              Additionally, for institutions subject to FDIC resolution, FDIC can pay off their
              advances in order to obtain the secured collateral, or negotiate agreements with
              acquiring institutions to assume their advance debts; both of these actions can
              potentially result in losses to FDIC’s Deposit Insurance Fund (DIF) if the value of an
              FHLBank’s outstanding advances exceed the realized value of the pledged collateral.

             Collateral Control.30 The Bank Act and FHFA regulations require each FHLBank
              to secure advances fully by maintaining security interests in eligible collateral. FHFA
              examiners concluded that FHLBanks could improve their risk management practices

30
  In addition to conducting the horizontal review, FHFA published two annual reports related to collateral securing
advances at FHLBanks. The first report analyzed collateral data as of December 31, 2007, by type and FHLBank
district. The second report provided collateral data as of December 31, 2008. The second report also studied the
extent to which loans and securities used as collateral to support FHLBank advances were consistent with
interagency guidance issued by FBAs on nontraditional mortgage products and subprime lending. This second
report noted that each FHLBank had adopted policies, procedures, and practices requiring that mortgage loans and
securities used as collateral be consistent with interagency guidance as well as policies addressing anti-predatory
lending.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           15
                related to collateral control.31 Among other concerns, FHFA found that four
                FHLBanks failed to identify third-party servicers and custodians used by members.
                In addition, examiners recommended that FHLBanks’ security agreement include a
                material adverse change clause, which would require that the member notify its
                FHLBank of adverse events. Based on their review, examiners issued 20 findings in
                this area, which were classified as 11 weaknesses (4 of which were considered
                significant) and 9 recommendations.

               Haircut Methodology and Valuation Models.32 When evaluating the effectiveness
                of FHLBanks’ haircut methodologies, examiners assessed the basis for haircuts and
                the frequency with which the banks reviewed them. Because the value of the
                collateral pledged by member banks may fluctuate over time, it is important for
                FHLBanks to monitor the value of collateral to assure that member banks have
                pledged an appropriate amount. Generally, examiners expected FHLBanks to
                evaluate haircuts every six months to reflect changing market conditions and
                standards. Examiners also evaluated the frequency with which FHLBanks used
                valuation models to value members’ collateral—a member’s collateral should be
                valued quarterly with updated information provided by the member.

                The horizontal review determined controls related to haircuts and collateral valuation
                methodologies needed improvement. In addition, examiners found that, in some
                cases, FHLBanks had inadequate: (1) valuation models and methodologies;
                (2) processes for tracking member bank’s collateral adjustments; and (3) staff to
                perform analysis and collateral valuation reviews. The most frequent finding in this
                area related to inadequate methodologies used by FHLBanks to support haircuts
                applied to collateral pledged by member banks. Examiners issued 15 findings in this
                area, which were classified as 1 unsafe or unsound practice, 13 weaknesses, and
                1 recommendation.

               Nontraditional Mortgage Products.33 When evaluating FHLBanks’ compliance
                with FHFA guidance, examiners assessed the FHLBanks’ processes to ensure that

31
  When evaluating collateral control, some of the actions taken by examiners to assess the collateral status included:
(1) determining the frequency that FHLBanks obtained loan portfolio information from their members and the
source of this information; (2) reviewing the basis FHLBanks used to place member banks in the listing status;
(3) reviewing the due diligence FHLBanks used when third-parties maintained collateral in the delivery status; and
(4) conducting site visits for verification purposes.
32
     See “Glossary of Terms.”
33
  Nontraditional residential mortgage loans are defined as mortgages that allow borrowers to defer payment of
principal or interest. Such loans are also referred to as alternative or exotic mortgage loans and may be interest-only
mortgages or payment-option mortgages. They may also have other features such as variable interest rates with
below-market introductory rates and reduced documentation to support the borrower’s repayment capacity.

               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           16
                they did not accept collateral for advances or purchase PLMBS that contain
                mortgages that had not been underwritten consistent with interagency guidance on
                nontraditional and subprime mortgage products.34 On the basis of their findings,
                examiners criticized most of the FHLBanks for one or more of the following:
                (1) failing to assess and test loan collateral underwriting; (2) lacking adequate
                procedures to identify the volume of nontraditional and subprime mortgages pledged
                as collateral; and (3) not establishing risk limits on the volume of subprime and
                nontraditional residential mortgages accepted as collateral. Examiners issued
                14 findings in this area, which were classified as 13 weaknesses and
                1 recommendation.

               Governance.35 Examiners’ concerns regarding FHLBanks’ governance were based
                on the weaknesses identified and the failure of boards of directors and management to
                ensure that controls for advances and collateral risk management practices were
                adequate. Specific concerns that influenced examiner decisions regarding governance
                related, but were not limited, to: (1) the overall credit risk structure including the lack
                of independence, insufficient staffing, and inadequate credit risk committee oversight
                at 7 of the 11 FHLBanks examined; (2) failure to implement a collateral system in a
                timely manner at 1 FHLBank; and (3) inadequate audit and risk assessment
                procedures at 2 FHLBanks. Examiners issued 17 findings in this area, which were
                classified as 1 unsafe or unsound practice, 13 weaknesses, and 3 recommendations.

In addition, examiners made recommendations for the improvement of FHFA’s internal
operations (see Figure 4, below, for a discussion of seven recommendations that are related to
problem member banks; FHFA has implemented one of these internal recommendations).

           Commercial Bank and Thrift Member Performance Study

In October 2009, FHFA conducted an internal study that included an analysis of the financial
performance of member banks that presented heighted supervisory concern and the risks that
they posed to the FHLBank system.36 FHFA selected the member banks based on their

Nontraditional residential mortgages may result in increased risk—particularly when the nontraditional mortgages
are not appropriately underwritten. While FHLBanks do not originate loans, they have exposure to nontraditional
and subprime mortgages because they are found in their holdings of mortgage-backed securities, purchased
mortgage portfolios, and/or the collateral for advances to members.
34
     FHFB Advisory Bulletin: AB-07-01 (April 12, 2007); and Advisory Bulletin: AB-08-02 (July 1, 2008).
35
  Effective corporate governance at FHLBanks requires engaged, capable, and experienced directors and senior
management; a coherent strategy and comprehensive business plan; effective and measureable risk limits and
controls; and clearly defined lines of responsibility and accountability.
36
 FHFA, Risk Monitoring Updates, Commercial Bank and Thrift Member Performance – Does Lending to Risky
Members Pose Additional FHLBank Risks? (October 2009).


               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           17
composite CAMELS ratings, financial data obtained from FDIC’s Consolidated Reports of
Condition and Income, and FHLBank membership data. Based on the study’s results, FHFA
concluded that FHLBanks made 45% of their total advances to members characterized by
relatively weakened financial conditions, and that FHLBanks might have over-extended lending
to some members with higher levels of nonperforming assets.37

In addition, FHFA’s internal study determined that the Atlanta and San Francisco FHLBanks had
the highest percentages of total assets represented by member banks with CAMELS ratings of
3, 4, and 5—68% and 78% respectively. Further, FHFA-OIG determined that, between
January 2007 and September 2011, many of these poorly rated institutions failed: 149 for the
Atlanta FHLBank and 55 for the San Francisco FHLBank.

Further, the Agency expressed concern that excessive lending to members with a higher
probability of failure could have a negative impact on FHLBanks’ super lien protection. The
super lien can improve the financial standing of FHLBanks—versus unsecured creditors—by
giving them, in the context of an FDIC receivership or conservatorship, priority over unsecured
creditors with respect to a failed member bank’s unsecured assets.38 Therefore, pursuant to super
liens, FHLBank advances and associated prepayment fees will most likely be paid without the
FHLBanks incurring losses, in the event of a member bank’s failure and an eventual FDIC
receivership or conservatorship.39 However, if the value of an FHLBank’s outstanding advances
exceed the realized value of its pledged collateral, then other creditors, shareholders, and FDIC’s
DIF may incur losses.

FHFA also expressed concern that excessive lending to members with a higher probability of
failure could result in a call for legislation to remove the preferred status of FHLBank advances.
If the super lien protection was removed, FHLBanks would still be protected from losses by the
collateral securing advances but could be at increased risk of loss because of the risk that the
collateral’s liquidation value is insufficient to cover the unpaid principal balance of the
members’ advances.

The study suggested that FHLBanks reassess their business plans that rely on troubled members
for advance growth.40 Nonetheless, the impact of the study is limited or at best unclear. FHFA
37
  This included member banks with composite CAMELS ratings of 3 to 5. About 90% of these advances were to
banks that were rated as a 3.
38
  Public Law No. 100-86. The statute provides a priority claim only when a member grants a security interest in all
of its assets to an FHLBank.
39
  Ordinarily, FHLBanks are required to include prepayment fees in the cost of advances to make the borrower
“financially indifferent to [the] . . . decision to repay [an] advance prior to its maturity date” (12 CFR § 1266.6).
40
   Specifically, the study states that any FHLBanks with business plans that rely on members with high levels of
nonperforming assets for growth may need to reassess these plans. Also, the study did not identify a role for FHFA
in following up on business plans that rely on troubled banks for growth.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           18
officials stated that the Agency distributed their findings to FHFA supervision staff, but could
not provide information indicating when this was done or whether supervision staff used the
report to enhance overall FHLBank supervision. Moreover, FHFA did not implement the
report’s suggestion or communicate the results of the study to FHLBanks.41

Oversight of FHLBanks’ Member Banks

         Generally

As of September 30, 2011, commercial banks, thrifts, and credit unions represented 7,511 of the
7,758 FHLBank members, or more than 96% of the membership.42 However, FHFA does not
have statutory supervisory authority over the financial institutions that comprise the FHLBanks’
membership. Instead, they are supervised and regulated by FBAs, including FDIC, the Office of
the Comptroller of the Currency (OCC), the Board of Governors of the Federal Reserve System,
and the National Credit Union Administration.43 Among other things, these agencies conduct
periodic examinations, issue regulations, establish capital standards, and may take supervisory
enforcement actions to carry out their oversight responsibilities.

Each of these agencies is also a member of the Federal Financial Institutions Examination
Council (FFIEC). FHFA is not a member of FFIEC, and so FHLBanks are not represented on
this interagency council. This limits FHFA’s capacity to coordinate its oversight activities with
FBAs.44



41
   Many of the FHLBanks had business plans that assumed lending to members with composite CAMELS ratings of
3 to 5 would continue to sustain advance growth.
42
  Insurance companies and (to a much lesser extent) CDFIs represent the remaining 247 members of the FHLBank
system, as of September 30, 2011, according to FHFA’s membership data.
43
  Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, a fifth regulator, the
Office of Thrift Supervision, closed as of July 21, 2011, and most of its functions were transferred to OCC.
44
  FFIEC was established on March 10, 1979, pursuant to Title X of the Financial Institutions Regulatory and
Interest Rate Control Act of 1978, Public Law No. 95-630. Section 1002 of the authorizing legislation indicates that
an early predecessor of FHFA, the Federal Home Loan Bank Board (FHLBB), was a member of FFIEC. Later
legislative reorganizations of the FHLBanks’ regulatory framework, including HERA, did not expressly include
FHFA or its predecessor (and FHLBB’s successor), FHFB, on FFIEC.
On June 3, 2009, former Director James B. Lockhart III testified that the supervision of “mortgage products,
markets, and institutions” can be improved by making FHFA a member of FFIEC:
         A near term step would be for FHFA to have fuller participation in . . . FFIEC[]. In particular,
         designating FHFA as a liaison member to the FFIEC would facilitate sharing of information with
         FFIEC members. Because of the importance of mortgage holdings for banks, FHFA should be
         part of the FFIEC in terms of sharing information and providing input.
See www.fhfa.gov/webfiles/2707/FHFA_Director’s_Testimony_Final.pdf.


            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           19
           FHFA’s Coordination with the Federal Banking Agencies

According to FHFA officials, the extent of the Agency’s coordination with FBAs includes
periodic meetings and telephone calls that relate to large member banks and their potential
failure. This coordination focuses on how FHLBanks that made advances to large member
banks should address potential failure.

FBAs may share supervisory and examination information with FHFA but are not required by
law to do so. FHFA has memoranda of understanding (MOUs) with the FBAs to facilitate
coordination and information-sharing among the agencies. Pursuant to the MOUs, FHFA may
request bank examination data directly from the FBAs on an as needed basis. However, FHFA
officials advised that FHFA has not used the MOUs to request access to the member information
necessary to oversee advances and collateral risks and potential losses to FHLBanks. FHFA
needs to take the initiative and more actively pursue the respective information.

Additionally, in accordance with federal law, the FHLBanks have executed MOUs with the
FBAs.45 These MOUs provide FHLBanks with access to reports, records, and other information
relating to the financial condition of any member bank with which an FHLBank is or is
contemplating transacting business. However, FHFA is not a party to these MOUs and,
therefore, is not afforded similar access to data regarding FHLBank member institutions.46
When the MOUs were brought to the attention of FHFA officials, they advised that they had not
been aware that FHLBanks had existing MOUs with FBAs.

           Role of FDIC

FDIC has three main responsibilities relative to insured depository financial institutions,
including FHLBank members. Specifically, FDIC acts as:

               Supervisor for most state-chartered banks and some thrifts;

               Insurer of most depository institutions through the DIF; and

               Receiver for failed financial institutions, when appointed by bank chartering agencies.

The roles of insurer and receiver require FDIC to play an active part in resolving failing and
failed FHLBank members. When a member bank fails, its chartering agency closes the
institution and appoints FDIC as receiver to resolve the failure. This resolution process includes
determining how to handle FHLBank advances. Specifically, FDIC, as receiver, may recognize
45
     The Financial Institutions Reform, Recovery, and Enforcement Act of 1989, § 719.
46
 Further, the plain terms of the MOUs prevent sharing pertinent data with FHFA. The MOUs restrict the
FHLBanks from sharing member bank information with FHFA, without prior approval from the respective FBAs.


               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           20
the priority of any security interest granted to an FHLBank by any member bank, or develop a
mutually agreeable plan for payment or assumption of any advances made by the FHLBank. The
latter agreement could also provide for the servicing, including foreclosure upon and liquidation
of the collateral securing any advances.47

           Potential Impact on the DIF

When failed member banks have outstanding FHLBank advances, FDIC is responsible for
determining how they will be treated. In connection with its secured advances, FHLBanks have
a claim on pledged and delivered collateral of the failed bank. In addition and as discussed
above, FHLBanks can possess a super lien on the failed members’ unencumbered assets. To
obtain clear title to the pledged, delivered, and unencumbered assets of the failed members,
FDIC can repay the outstanding advances. Alternatively, institutions that acquire failed member
banks may assume responsibility for the outstanding advances as part of an agreement with
FDIC. In both of these cases, FDIC’s DIF can incur losses to the extent that a failed member
bank’s secured collateral fails to satisfy the unpaid principal balance (and prepayment fee) of the
FHLBank’s advance.

Although FHFA asserts that FHLBanks have not suffered a loss associated with advances to
member banks, losses may have been shifted to FDIC’s DIF, which resolves obligations of failed
financial institutions. FHFA-OIG was not able to quantify the estimated losses to the DIF
explicitly associated with advances because definitive data were not available—neither FDIC nor
FHFA tracks losses to the DIF that are specifically related to FHLBank advances. However,
according to FDIC, secured advances can increase the resolution cost for a failed institution. The
potential risk that advances can present to the DIF warrants that FHFA and FHLBanks take steps
to ensure that the risk management practices for advances and collateral are appropriate. FHFA
has in place a combination of onsite and offsite examination and related controls to address these
risks although further enhancements should be considered.

           Examples of FDIC Activities Affecting FHLBanks

FDIC’s concerns regarding FHLBank advances are longstanding. Below are examples of
FDIC’s concerns related to and actions taken to address risks associated with FHLBank
advances.

               FDIC’s Advisory Committee on Banking Policy. In April 2003, FDIC’s Advisory
                Committee on Banking Policy identified problems with the resolution process
                involving FHLBank advances, which included: (1) the preferred status that the
                resolution process provides to FHLBanks is not available to any other secured

47
     FDIC Rules and Regulations, Resolution and Receivership Rules, 12 CFR § 360.2.

               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           21
                creditor, including the Federal Reserve Banks; (2) the protection of FHLBanks from
                credit risk or any other investment risk through FDIC’s payment of advances with
                principal and interest almost immediately at failure; and (3) the increased loss to
                uninsured depositors and the DIF associated with FHLBank advances prepayment
                fees. The committee also concluded that FHLBank advances have implications for
                both failed-bank resolutions and deposit insurance pricing.48 FDIC has also
                recognized that banks that rely heavily on advances and non-core funding sources can
                increase a bank’s liquidity risk profile, reduce a bank’s franchise value, and increase
                FDIC’s resolution costs in the event of failure.

               FDIC Center for Financial Research. In July 2005, FDIC’s Center for Financial
                Research issued a working paper, Should the FDIC Worry About the FHLB? The
                Impact of Federal Home Loan Bank Advances on the Bank Insurance
                Fund (No. 2005-10). This paper discussed whether the growing reliance on
                FHLBank advances increased expected losses to the insurance fund, the insurance
                fund’s moral hazard associated with the increased risk advances, and the lack of
                associated risk premiums to offset that risk. The paper concluded that FDIC should
                price FHLBank-related risk exposures to the DIF.

               Consideration of Risks Associated with Advances in Assessments to the DIF. In
                a final rule entitled “Assessments,” effective April 2009, FDIC concluded that
                problem banks that use FHLBank advances and other secured liabilities to fund
                material growth strategies pose increased risk to the DIF.49 To help mitigate potential
                losses to the DIF associated with FHLBank advances and other secured liabilities,
                such as brokered deposits, FDIC has taken steps to ensure that financial institutions
                pay risk-based assessments to the DIF.50 Specifically, FDIC’s final rule amended the
                manner in which it makes assessments to ensure that the risks that FHLBank
                advances present to the fund are considered in the assessment calculation.51

                Between 2007 and September 30, 2011, there were 399 financial institutions that
                failed. Most of them were FHLBank members. The proportion of failed member
                banks varied among the 12 FHLBank districts, with 204 (about 51%) occurring in the

48
     FDIC’s Advisory Committee on Banking Policy, Federal Home Loan Bank System Paper (April 2003).
49
     12 CFR § 327.
50
  FDIC defines a risk-based system as one based on an institution’s probability of causing a loss to the DIF due to
the composition and concentration of the institution’s assets and liabilities, the amount of loss, and the revenue
needs of the DIF.
51
  FHFA-OIG did not determine if the increase in assessment was sufficient to offset losses to FDIC’s DIF resulting
from FHLBank advances. Also, the payment of assessments does not reduce the need to focus on reducing losses
resulting from bank failures.


               Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           22
              Atlanta and San Francisco districts.52 Many of the failed member banks had advances
              that were paid back by the DIF or assumed by the acquiring institutions.53 Thus,
              losses were not incurred by FHLBanks, but, instead, were absorbed by FDIC’s
              resolution process.

         Role of FFIEC

FFIEC is an interagency council established to prescribe uniform principles and standards for
examining financial institutions and recommending policies to promote uniformity in their
supervision. FFIEC membership includes FBAs and state regulatory agencies. Together, these
agencies have the authority to examine member banks and take enforcement actions as a result
of: identified deficiencies; failure of banks to implement timely and effective corrective actions
or comply with laws and regulations; or other supervisory concerns. Although FHFA is a federal
agency that supervises and regulates FHLBanks, the Agency currently is neither a member of nor
a participant in the full FFIEC.54 However, as discussed above, FHFA has advocated for its
inclusion in FFIEC and has sought legislation authorizing such inclusion.

FFIEC has recently addressed a number of issues related to residential mortgage lending that
could be of particular interest to FHFA in fulfilling its substantial responsibilities in the
secondary mortgage market. Examples of these issues include registration of mortgage loan
originators, data on mortgage transactions, reverse mortgage lending, and mortgage interest rate
risk.

         Global Watch-lists of Problem Member Banks

FHLBanks and FDIC maintain lists of banks that they have identified as presenting heightened
concern from a member bank’s creditworthiness perspective (FHLBanks) or from a supervisory
and/or regulatory perspective (FDIC). As the supervisor and regulator of the FHLBanks, the
information FHFA maintains on problem member banks is not comparable to that maintained by

52
  FHFA gathers information from FHLBanks on failed member banks and their amount of outstanding advances on
a bi-weekly basis in its Advances Reports and in response to the Agency’s 2009-03 Special Data Request. However,
FHFA does not maintain or report data on the cumulative amount of advances associated with member banks at the
time of failure that were either paid by FDIC or assumed by the acquiring financial institutions.
53
  FHFA-OIG determined FDIC does not specifically track the estimated cost or loss to the DIF associated with
FHLBank advances on the books of failed member banks. However, the impact that member banks and their
associated outstanding advances present to the DIF and to the FHLBank system supports the need for FHFA to
ensure FHLBanks have adequate controls over advances to member banks and that close coordination occurs
between FHFA and the responsible FBAs.
54
  FHFA, however, is a member on FFIEC’s Appraisal Subcommittee. The Appraisal Subcommittee’s mission is to:
(1) oversee the appraiser regulatory programs established by the states, territories, and the District of Columbia;
(2) monitor the requirements addressing appraisal standards for federal financial institutions; (3) maintain the
National Registry of State Certified and Licensed Appraisers; and (4) monitor and review operations of the
Appraisal Foundation.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           23
FHLBanks or FDIC. Having access to FHLBanks’ and FDIC’s lists of problem member banks
can enhance supervision and allow for: (1) identifying, monitoring, and measuring systemic risks
associated with advances, including those related to concentrations and market conditions;
(2) increasing coordination with other FBAs; and (3) more effectively planning for potential
failures and resolution activities.

FHLBanks’ Watch-Lists. Each FHLBank maintains a watch-list consisting of member banks
that present heightened supervisory concern. FHLBanks place member banks on their watch-
lists to ensure that they closely monitor the problem institutions’ overall and financial condition
and that prospective advances made to them are considered more carefully. Being placed on a
watch-list is a direct reflection of the member’s creditworthiness. The specific criteria used to
determine which member bank is placed on a watch-list varies from one FHLBank to another,
but they commonly include declining financial condition, advance concentrations, adverse or
downgrades in regulatory ratings, and formal enforcement actions.

FHFA does not obtain FHLBanks’ watch-lists on a routine basis for use in system-wide
oversight. Instead, FHFA examiners ordinarily obtain watch-lists during their pre-examination
phase. The examiners use the lists to determine the appropriate scope and testing levels for the
examination. The watch-lists, however, remain in the examination work papers and can be used
for planning future examinations. The lists are not otherwise used by FHFA to enhance its
supervisory mission related to the overall FHLBank system.

FHFA-OIG obtained the watch-lists for the Atlanta FHLBank and identified various indicators
that should have been of interest to FHFA from a supervisory perspective. For example:

             Advances to watch-list members increased by approximately $8 billion (from
              $63 billion to $71 billion) in fiscal year 2008. This increased exposure to members
              that presented heightened supervisory concern.

             Advances to watch-list members decreased by approximately $49 billion (from
              $71 billion to $22 billion) in fiscal year 2009. This is partly due to failures of
              member banks. Sudden shifts in asset mix can present interest rate and other risks to
              an FHLBank.

             From the beginning of fiscal year 2008 to the end of fiscal year 2009, the number of
              institutions on the watch-list increased more than sevenfold (from 86 to 610 member
              banks). This indicates a significant increase in the Atlanta FHLBank’s concerns
              regarding member banks’ creditworthiness. Sharp increases in the watch-list can
              indicate increased credit risk and strain FHLBank and FHFA examination resources.




             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           24
The FDIC’s Problem Member Bank List. In an effort to identify insured financial institutions
that FDIC deems to be of supervisory concern and potential risk to the DIF, FDIC maintains a
list of problem banks. Many of the institutions on this list are FHLBank members.

From 2006 through September 30, 2011, the number of problem banks steadily increased, as did
the number of bank failures. As of September 30, 2011, FDIC reported 844 financial institutions
as problem banks. The majority of problem bank failures since 2006 occurred between 2009 and
2010, as indicated in Figure 3 below.

Figure 3: FDIC ‒ Problem Banks and Bank Failures—2006 Through September 30, 201155

                     Year                    Number of Problem Banks               Number of Bank Failures
                     2006                               50                                    0
                     2007                               76                                    3
                     2008                              252                                   25
                     2009                              702                                  140
                     2010                              884                                  157
                     2011                              844                                   74
                    TOTAL                             n/a *                                 399
       * These values may not be summed, as a problem member bank can remain on the list for multiple periods.

FHFA officials advised FHFA-OIG that the Agency at one time had generated a report that listed
distressed member banks, similar to FDIC’s listing. However, FHFA-OIG determined that this
report is no longer maintained although FHFA has stated that it collects certain member
information, such as on capital, using public sources. FHFA-OIG believes the identification and
monitoring of problem member banks on a systemic basis can aid FHFA in fulfilling its overall
regulatory responsibilities and establishing system-wide supervisory priorities such as was
evident in the horizontal review FHFA performed of advances and collateral. Additionally, the
information can be used to monitor concentration risk for problem member banks doing business
with multiple FHLBanks.




55
     Source: FDIC’s annual: Statistics At a Glance, Historical Trends, and Failed Bank List.


              Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           25
FINDINGS
FHFA-OIG finds that:

     1. FHFA Has Not Implemented Most of the Recommendations from Its
        Internal Reviews, and thus Has Not Fully Addressed Significant Risks
        Associated with FHLBank Advances and Collateral Risk Management
In 2008 and 2009, FHFA conducted two reviews related to FHLBanks’ collateral management: a
system-wide horizontal review of secured credit and an internal study on risky and troubled
member banks. Both reviews identified significant internal risks associated with advances and
collateral management practices, but FHFA did not ensure that most of the potential corrective
actions recommended by the reviews were fully considered for implementation, or that the
results of offsite monitoring analyses were made available to interested parties. FHFA could
further enhance its supervisory responsibilities to mitigate risks associated with FHLBank
advances and collateral risk management through cross-cutting reviews such as its horizontal
review and internal study, but it cannot achieve the full potential of such reviews unless it
thoroughly considers and, if appropriate, acts upon its review findings. In light of this,
FHFA-OIG concludes that the Agency should take effective and timely action to address the
significant risks it identified. Such actions include assessing the reviews’ results and
implementing their overall recommendations.

         Horizontal Review

On February 19, 2010, FHFA examiners issued a consolidated report to DBR management that
detailed the results of the horizontal review. The report concluded that the advances and
collateral risk management practices of FHLBanks warranted increased supervision by FHFA.
The report included internal recommendations to ensure that the FHLBanks and FHFA
implement corrective actions—including enhanced Agency supervision—to address the
identified risks.56 FHFA-OIG determined that, as of December 2011, the Agency had
implemented only one of seven recommendations related to problem banks, as listed in Figure 4,
below. When asked about the six recommendations that have not been implemented, DBR
management told FHFA-OIG that the Agency had no plans to implement those



56
   Examiners also identified weaknesses and deficiencies, and made recommendations to the 11 FHLBanks included
in the review (individually) in their respective ROEs. FHFA-OIG reviewed the horizontal review recommendations
made to the San Francisco and Atlanta FHLBanks. Based on FHFA’s subsequent examinations of those two banks,
FHFA-OIG determined that examiners concluded that both banks implemented corrective actions to address the
horizontal review recommendations. The scope of this audit did not include verifying the implementation or
assessing the effectiveness of corrective actions taken by FHLBanks.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           26
 recommendations, but DBR acknowledged the importance of them. As of December 2011,
 FHFA had no approved plans or schedule to implement the six recommendations.

 Figure 4 outlines the details of some of the recommendations made to FHFA and the actions the
 Agency has taken to implement them.

      Figure 4: Horizontal Review Recommendations Related to Problem Member Banks57
                                                         Action
                                                         Taken
               Recommendations                          (Yes, No,        Description of Action(s) Taken by FHFA
                                                           or
                                                        Ongoing)
FOLLOW-UP

   Conduct follow-up activities at                                     Examiners assessed actions taken by the
   subsequent examinations to assess                                   FHLBanks to address horizontal review
1.                                                       Ongoing
   corrective actions taken by FHLBanks to                             deficiencies during follow-up examinations
   address deficiencies at the banks.                                  conducted in 2009 and 2010.

                                                                       FHFA conducted the horizontal review
   Conduct a follow-up horizontal review of
                                                                       beginning in mid-2008 through mid-2009.
   the advances and collateral risk
2.                                                          No         Thus the five-year time period has not yet
   monitoring in 2014—five years after the
                                                                       expired. However, planning for subsequent
   completion of the 2008/2009 review.
                                                                       reviews has not started.

   Update the examination program for the
                                                                       FHFA began updating the Examination
   horizontal review to reflect lessons-
                                                                       Manual in early 2008. Although the
   learned from the current in-depth review,
                                                                       horizontal review reinforced the need to
   the current economic crisis, and
                                                                       update the manual, the Agency has not
3. subsequent events that may affect                        No
                                                                       completed the revisions. Agency officials
   advances and collateral risk management,
                                                                       could not provide a specific completion date
   including potential insurance company
                                                                       for the revised sections related to advances
   failures or new types of members such as
                                                                       and collateral risk management.
   CDFIs.




 57
  Sources: Summary Results of In-Depth Review of Advances and Collateral Risk Management Practices at the
 FHLBanks (February 19, 2010); FHFA-OIG analysis; and various other sources such as interviews and the annual
 ROEs.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
 This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                            27
                                                          Action
                                                          Taken
               Recommendations                           (Yes, No,      Description of Action(s) Taken by FHFA
                                                            or
                                                         Ongoing)
GUIDANCE

   Develop and issue additional supervisory
                                                                        FHFA periodically provides guidance to
   guidance for advances and collateral risk
                                                                        supervisory staff. Since the horizontal
   management. The horizontal review
                                                                        review began in June 2008, FHFA issued a
   concluded that FHFA’s advisory bulletins
                                                                        total of 11 guidance bulletins, 6 of which
   for advances and collateral risk
                                                                        included references to advances and
   management that existed at the time of
4.                                                           No         collateral. None of this guidance
   the horizontal review primarily focused
                                                                        addressed horizontal review
   on nontraditional and subprime
                                                                        recommendations. FHFA-OIG did not
   mortgages and that guidance could be
                                                                        identify any other plans to provide
   augmented for member bank monitoring,
                                                                        advances and collateral-related guidance to
   collateral control, haircut methodology,
                                                                        address the horizontal review.
   and valuation models.

EXAMINER TRAINING

                                                                        FHFA periodically provides training to
                                                                        supervisory staff. For instance, in
   Provide periodic FHFA-sponsored
                                                                        June 2010, DBR held its regularly
   training specific to advances and
                                                                        scheduled semi-annual training conference.
5. collateral risk management practices to                   No
                                                                        However, FHFA-OIG did not identify any
   staff and update training to reflect
                                                                        specific plans to provide advances and
   lessons-learned.
                                                                        collateral-related training to address the
                                                                        horizontal review results.

   Because of the unique collateral practices                           As of this audit, FHFA did not have
   at the FHLBanks, FHFA should develop                                 specific plans to provide targeted training
6.                                                           No
   its own training or use similar training                             for advances and collateral risk
   procured by FHLBanks.                                                management practices.

   Training can be organized into distinct                              As of this audit, FHFA did not have
   modules covered by the horizontal review                             specific plans to provide targeted training
7.                                                           No
   and into two categories: comprehensive                               for advances and collateral risk
   and refresher training.                                              management practices.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           28
Recommendation 1
Preliminary information suggested that FHFA made progress in implementing
Recommendation 1, which concerns following up to ensure that FHLBanks corrected
deficiencies noted during the horizontal review. To confirm, FHFA-OIG reviewed subsequent
ROEs and found that examiners reported they assessed corrective actions and concluded that the
FHLBanks have made progress in implementing their respective horizontal review
recommendations. However, FHFA-OIG determined that the examiners’ documentation of the
follow-up activities did not fully address the level and type of testing conducted to verify
whether FHLBanks had adequately addressed prior examiner concerns.58 For example,
examiners did not complete standalone work-papers or summaries that document how they
verified or tested FHLBank corrective actions taken in response to previously identified
supervisory concerns. In addition, the findings tracker that FHFA uses to document follow-up
activities did not always include references to follow-up testing procedures performed, actions
taken by FHLBanks to implement examiner recommendations, or the basis of examiner
conclusions that prior examiner recommendations had been implemented and closed.59

Nonetheless, it may be too early to assess FHFA’s actions fully with respect to this
recommendation until additional examination activity is completed.

Recommendations 2 through 7
As of December 2011, DBR management had no approved plans to implement the other six
horizontal review recommendations. The Agency acknowledged, however, that the results
should have been addressed in a timely manner.

FHFA-OIG has identified several risks posed by delayed action on the remaining
recommendations.

             Follow-up – Recommendations 2 and 3. FHFA planning for subsequent horizontal
              reviews has not started. FHFA-OIG notes that the Agency took approximately three
              years to plan, perform, and report the results of the horizontal review. Therefore, in
              order to complete the next review by 2014, FHFA action is required in the near-term
              to plan the effort. Planning for the horizontal review should include an update of the
              review program related to advances and collateral risk management. Also, FHFA has

58
  As a result of an internal audit, FHFA’s predecessor implemented a Findings Tracker to assist the Agency in
ensuring that examination findings, including those related to advances and collateral risk management, are
communicated to FHLBanks’ management and boards of directors, and formally documented in ROEs.
Additionally, the tracker was designed to document follow-up verification activities.
59
  FHFA-OIG determined that at least two Examiners-in-Charge have implemented steps to improve documentation
of follow-up activities, including verifying corrective actions taken by their respective FHLBanks. However,
actions to improve the documentation of follow-up activities are not completed Agency-wide.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           29
              not yet assessed lessons-learned from the 2008/2009 review to prepare for subsequent
              horizontal reviews. Specific examples of lessons-learned that need to be assessed by
              DBR management include work-paper review and non-bank member coverage, as
              discussed below.

              According to the DBR Portfolio Manager who served as project leader for the
              horizontal review, the work-papers of results for each FHLBank review were not
              reviewed contemporaneously with their completion. Instead, the work-papers were
              reviewed up to one year afterwards, when the consolidated report preparation began.
              The project leader stated the delay in review of the results of each horizontal review
              for quality and consistency was a lesson-learned. Upon compiling the results of the
              review, FHFA concluded additional work related to one bank was necessary. As a
              result, the consolidated report of results was limited to 11 of the 12 FHLBanks.

              Another lesson-learned relates to an emerging risk associated with insurance
              company FHLBank members. Because insurance companies are not depository
              institutions, they are not covered by the DIF and, therefore, are more likely to require
              collateral liquidation by FHLBanks in the event they fail. This risk should be more
              fully considered in subsequent horizontal reviews including by updating examination
              guidance to determine more accurately if FHLBanks’ advances and collateral
              management practices are adequate for these non-bank members.

             Guidance – Recommendation 4. According to the FHFA Strategic Plan 2009-2014,
              concerns, deficiencies, and other matters identified during a horizontal review are
              often addressed in guidance bulletins issued by the Agency. FHFA-OIG determined
              that FHFA has not issued new guidance to FHLBanks or examiners to address the
              horizontal review results. FHFA-OIG concluded that since the horizontal review
              began in June 2008, FHFA issued a total of 11 guidance bulletins, 6 of which
              included references to advances and collateral. However, none of this guidance
              addressed the horizontal review recommendations.

              Further, FHFA-OIG noted that—separate and apart from the horizontal review—
              FHFA has initiated a number of guidance bulletins related to advances and collateral,
              but these bulletins were neither completed nor issued. Among these incomplete and
              unissued bulletins, FHFA-OIG identified four draft bulletins that could have
              mitigated numerous risks and findings identified during the horizontal review. It was
              determined that DBR management did not revisit these draft bulletins once the
              horizontal review was completed. FHFA-OIG concludes that without issuing updated
              and final guidance that seeks to mitigate identified risks, examiners have neither clear
              and consistent instruction nor knowledge of Agency expectations and standards to be
              applied consistently across the banks. The following three examples illustrate
             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           30
              bulletins that have not been issued by the Agency that relate to risks identified in the
              horizontal review.

                  o The development of examination guidance on FHLBank risk management
                    started in May 2009. The guidance would have provided criteria for
                    examiners on the evaluation of the existence and adequacy of FHLBank risk
                    management practices and the integration of risk management practices into
                    decision making processes. The draft guidance highlights the importance of
                    FHLBanks defining their risk tolerance as well as risk retention and transfer
                    activities. In this regard, limits on member and geographic concentrations of
                    advances and collateral valuation policies are examples of areas to which the
                    guidance could be applied. The guidance was submitted to DBR’s
                    management for review in April 2011. The Agency concluded that the
                    guidance would be better suited for integration into the Examination Manual,
                    which also remains under development.

                  o Draft examination guidance on member advance concentration and business
                    risk was completed in mid-2007, but it was not widely vetted or issued. This
                    guidance would have provided a series of factors to be considered in the
                    course of an FHLBank examination including governance of advance
                    concentration risks. The factors specifically included regular reporting on
                    concentration risk data relative to risk-based performance measures and
                    analysis of members with large volumes of advances. According to DBR
                    management, the review and issuance of this guidance was overtaken by other
                    events.

                  o A project to update guidance or revise regulations on risk-based differential
                    pricing of advances by FHLBanks was assigned to a staff member in 2007,
                    and remained an active DBR project until December 2008.60 The project was
                    not completed due in part to efforts to establish FHFA in the summer and fall
                    of 2008 and other priorities.

             Training – Recommendations 5, 6, and 7. The horizontal review’s consolidated
              report notes, “the volume of findings from the onsite review reflects in part the
              absence of training in advances and collateral risk management prior to the in-depth
              review.” Additionally, with regard to examiners with experience in this area, the
              roles and responsibilities within the examination team or the Agency may have
              changed over time so the examiners that have gained expertise may not be available

60
 In the pricing of advances, section 7(j) of the FHLBank Act authorizes an FHLBank to distinguish between
members based on its assessment of the credit and other risks to the bank of lending to a particular member.

             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           31
              for subsequent horizontal reviews or follow-up verifications. Yet, FHFA has not
              provided specific training related to horizontal review issues concerning the
              examination of advances and collateral, and it does not have plans to provide such
              training in the immediate future. With additional training, examiners would be better
              prepared to conduct annual examinations and future horizontal reviews of secured
              credit, including advances and collateral risk management.

         Commercial Bank and Thrift Member Performance Study

FHFA’s offsite monitoring for 2009 included a study of the financial performance of member
banks that presented heightened supervisory concerns and the risks posed by those members.
The study relied on CAMELS ratings and financial data for 6,885 member banks, and focused on
the credit risk presented by member banks with composite CAMELS ratings of 3 to 5. FHFA
identified a number of significant risks to the FHLBank system. The most prominent risk that
FHFA noted related to FHLBanks’ lending practices related to poorly rated members or those
with a high probability of failure. The study suggested that FHLBanks reassess business plans
that rely on troubled members for advance growth.

FHFA-OIG concluded that DBR did not take action on the implementation of the study results
regarding FHLBank review of business plans or adequately document its internal dissemination
to examiners of the results of the study. Moreover, it is not clear that FHFA formally
communicated the results of the review to the FHLBanks.

    2. FHFA Can Take Additional Steps to Facilitate Its Capacity to Oversee
       FHLBanks Collateral Risk Management
FHFA-OIG found that FHFA can better oversee FHLBank collateral management by:
(1) leveraging FHLBanks’ access to FBA information; (2) exercising its rights under its MOUs
with FBAs; (3) pursuing greater participation in FFIEC; and (4) maintaining a centralized list of
FHLBank problem members.

Leveraging FHLBanks’ Access to FBA Information. As discussed above, FHLBanks have
MOUs that provide access to supervisory and regulatory information on their member banks.
These MOUs do not authorize FHLBanks to share with FHFA the information concerning
troubled member banks. FHFA needs to engage FHLBanks and FBAs to obtain amendments to
the MOUs guaranteeing the Agency’s access to FBA information regarding troubled member
banks. This important information can materially assist FHFA’s oversight capacity.

Exercising FHFA’s Authority Under Its MOUs with FBAs. FHFA and its predecessor
executed MOUs with FBAs that allow the Agency to request access to supervisory and
examination information. However, FHFA has not used these MOUs to obtain bank
examinations or otherwise enhance its FHLBank supervision.
            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           32
By periodically requesting from FBAs the examinations relating to troubled member banks and
reviewing them, FHFA would be better positioned to assess collateral management risks. For
example, FHFA could periodically review the examinations of troubled financial institutions to
better assess their overall financial condition and risk management. FHFA could also use such
examinations to determine the extent to which individual FHLBanks are managing their advance
exposure (e.g., whether FHLBanks have appropriately limited advances to problem institutions
and ensured that advances are sufficiently collateralized).

Pursuing Greater Participation in FFIEC. FBAs that supervise and examine member banks
are represented on FFIEC, but FHFA is not a member of or a participant in FFIEC. Although
FHLBB—which was responsible for overseeing and regulating FHLBanks prior to the creation
of FHFA and FHFB before it—was a member of FFIEC, unrelated legislation effectively
eliminated FHFA’s representation on the council.61 As a result, FHFA and FHLBanks have
limited access to sources with the greatest knowledge of issues that may impact the member
banks. Coordinating with FFIEC is not prohibited by statute and could increase FHFA’s and
FHLBanks’ awareness of issues that impact the safety and soundness of member banks. The
Agency has pursued membership in FFIEC unsuccessfully. FHFA-OIG commends FHFA for
attempting to become a member and believes the Agency should continue to pursue greater
participation in some capacity.

Developing a Centralized Problem FHLBank Member Watch-List. FHFA has not
established an effective, global method to identify and monitor member banks that are
considered to present heightened supervisory concern. The FHLBanks maintain individual
watch-lists of troubled member banks that are reviewed by FHFA examiners. FHFA, however,
neither consolidates the listings of problem members nor collectively compiles information
regarding the risk they pose to the FHLBank system.62

By maintaining centralized watch-lists of problem members, FHFA-OIG believes FHFA can
identify: (1) increases in the number of problem member banks; (2) geographic concentrations of
problem member banks; and (3) the impact of such increases on FHLBanks’ ability to achieve
their core mission of housing finance. FHFA would also be better positioned to ensure that
FHLBanks are effectively managing associated risks.




61
  FHLBB was also the chartering authority and regulator for federal savings and loan associations that supported its
FFIEC membership.
62
  FHFA gathers information on the top ten borrowers within the FHLBank system and for each FHLBank district.
However, the Agency does not gather and consolidate supervisory information on other member banks that are
considered to be “problem” or that present risks to the FHLBank system.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           33
CONCLUSION
FHFA has taken steps to mitigate risk related to advances and collateral at FHLBanks. These
steps include regular, onsite, annual examinations and the use of offsite monitoring practices.
However, FHFA can further strengthen its supervisory framework related to FHLBanks’
advances and collateral risk management practices. FHFA has not implemented the majority of
its examiners’ recommendations to ensure effective advances and collateral risk management
within the FHLBank system. Although preliminary evidence suggests that FHFA is
implementing one recommendation from its horizontal review, its actions are not fully
documented. Further, FHFA has not implemented important horizontal review recommendations
pertaining to collateral risk guidance and examiner training. FHFA also has not implemented a
suggestion from its 2009 internal study on advances management. Separately, FHFA-OIG has
identified other steps that FHFA could take to obtain information necessary to enhance its
collateral risk oversight and ensure that the FHLBanks are appropriately positioned to manage
such risks.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           34
RECOMMENDATIONS
FHFA-OIG recommends that FHFA:

           1.     Document fully its efforts to ensure that FHLBanks correct identified deficiencies
                  in collateral risk management.

           2.     Implement and follow-up on the horizontal review recommendations related to
                  the need for additional guidance and training and the need to conduct a follow-up
                  horizontal review of secured credit.

           3.     Advise FHLBanks to reassess business plans periodically that rely on troubled
                  members for advance growth.

           4.     Develop policies and procedures to ensure that offsite monitoring analyses that
                  are relevant to supervisory issues, including those related to advances and
                  collateral risk management, are distributed to examination staff and are used to
                  enhance examinations.

           5.     Continue to enhance coordination with FBAs and FHLBanks, including the use of
                  established MOUs or other written agreements, to obtain bank examinations and
                  other supervisory information as warranted to ensure improved collateral risk
                  management and to facilitate information-sharing related to member banks that
                  present heightened supervisory concerns or that have advance concentrations.

           6.     Continue to pursue greater participation in FFIEC to enhance the Agency’s
                  coordination with FBAs and state regulatory authorities responsible for
                  supervising and regulating FHLBank member banks.

           7.     Establish a consolidated global watch-list of member banks identified by
                  FHLBanks or by FHFA that present heightened supervisory concern and use the
                  global watch-list to enhance the Agency’s supervision of FHLBanks.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           35
SCOPE AND METHODOLOGY
The objective of this performance audit was to assess FHFA’s supervisory framework for
FHLBank advances and collateral risk management practices for member banks that present
heightened supervisory concern. Specifically, FHFA-OIG sought to review FHFA’s:
(1) supervisory framework and controls related to advances and collateral risk management; and
(2) annual examination results for the Atlanta and San Francisco FHLBanks and actions taken to
address those results.

In April 2011, FHFA-OIG initiated a survey to assess FHFA’s oversight of FHLBanks’ controls
with respect to underwriting standards and their compliance with such standards relative to their
credit decisions. In May 2011, FHFA-OIG completed the survey and announced an audit with
the modified objective set forth above. The scope of the audit was January 1, 2007, through
September 30, 2011. The scope was lengthened from March 31, 2011, to encompass more
recent information in relation to member bank failures and outstanding advances. FHFA-OIG
notes that this timeframe includes events and actions that took place under FHFA’s predecessor
agency, FHFB. However, to understand the program area and to assess whether the Agency’s
supervisory framework and controls have improved, FHFA-OIG needed to establish benchmarks
relative to the supervisory and banking industry environment at the height of the housing crisis.

FHFA-OIG performed fieldwork for this audit from June 8, 2011, to October 31, 2011. FHFA-
OIG conducted its field work at FHFA’s offices in Washington, DC. To achieve the objective,
FHFA-OIG interviewed FHFA senior and middle management in DBR and the Office of
General Counsel.63 FHFA-OIG also interviewed Portfolio Managers, Examiners-in-Charge, and
staff examiners within DBR’s Office of Examination.64, 65 As part of the examination staff
interviews, FHFA-OIG issued a survey on various topics, such as policies and procedures,
special working groups, and training.

Further, FHFA-OIG obtained, reviewed, and analyzed documents from FHFA and the Atlanta
and San Francisco FHLBanks. This allowed FHFA-OIG to understand the program area and the




63
     DBR was formerly known as the Office of Supervision under FHFB.
64
  FHFA reorganized its structure in December 2010. Portfolio Managers are now referred to as Associate
Directors. To cover the audit period, FHFA-OIG interviewed all current and former Portfolio Managers.
65
 FHFA-OIG selected six members of the examination staff, including Examiners-in-Charge and staff examiners
who were on the examination teams for the two selected FHLBanks during the audit scope.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           36
Agency’s and FHLBanks’ operations. To the extent possible, FHFA-OIG also reviewed source
systems and documentation applicable to the audit period including:66

        ROEs;
        Internal studies related to advances and collateral, including the horizontal review of
         FHLBanks’ credit risk;
        FHFA’s Office of Management and Budget A-123 assessments;
        Prior audit reports, including those conducted by the U.S. Government Accountability
         Office and the former FHFA Office of Internal Audit;67
        Fiscal years 2007 through 2010 performance and accountability reports;
        Advisory and Examination Bulletins;
        Tracking systems and programs for core business functions and DBR projects; and
        DBR’s quality assurance review reports.

FHFA-OIG selected two FHLBanks—Atlanta and San Francisco—for detailed testing and
review based on the following criteria:

        Their locale in relation to the regions most impacted by the housing crisis;
        The number of member bank failures since 2007;
        The number of member banks with CAMELS ratings of 3 to 5; and
        FHFA’s ratings of FHLBanks.

FHFA-OIG obtained and relied on computer-generated data from FHFA. Additionally, FHFA-
OIG assessed the validity of the computerized data and found it to be generally accurate, but
could not conclude on its completeness. FHFA-OIG reviewed data from the Call Report System,
Membership Database, network drives, and numerous SharePoint sites, all of which are used by
DBR to assist in the supervision of the FHLBanks.

FHFA-OIG also obtained computer-generated and hardcopy data from the two FHLBanks. After
performing high-level analyses, FHFA-OIG determined that the data would not facilitate the
detailed testing that was originally planned. As a result, minimal testing was performed on a
judgmental sample of member banks to determine if FHLBanks’ practices were consistent with
those stated in their policies and procedures. Additionally, FHFA-OIG reviewed the supervisory
strategies for FHLBanks to determine if advances and collateral deficiencies identified by FHFA
were resolved in a timely manner.


66
  For this audit, FHFA-OIG limited the scope and field work related to credit unions and insurance companies to
obtaining source documentation and information on the numbers of those entities that are members of the FHLBank
system, including the amount of outstanding advances attributable to those entities.
67
 Prior to the enactment of HERA, FHFB had an Office of Inspector General. Following HERA’s enactment,
FHFB’s Office of Inspector General became FHFA’s Office of Internal Audits, which was disbanded in 2010.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           37
To understand the type and extent of coordination between FHLBanks and FHFA with some
FBAs, FHFA-OIG coordinated general information sharing sessions with FDIC and OCC.68
FHFA-OIG also obtained copies of MOUs from OCC and FHFA. In addition, FHFA-OIG
reviewed FDIC data on the number of financial institution failures that occurred from January 1,
2006, through August 30, 2011. FHFA-OIG also reviewed information about FDIC’s concerns
and actions relating to the potential impact that FHLBank advances might have on the DIF.

FHFA-OIG assessed the internal controls related to the audit objective. Internal controls are an
integral component of an organization’s management that provide reasonable assurance that the
following objectives are achieved: (1) effectiveness and efficiency of operations; (2) reliability of
financial reports; and (3) compliance with applicable laws and regulations. Internal controls
relate to management’s plans, methods, and procedures used to meet its mission, goals, and
objectives, and include the processes and procedures for planning, organizing, directing, and
controlling program operations as well as the systems for measuring, reporting, and monitoring
program performance. Based on the work completed on this performance audit, FHFA-OIG
considers its findings on FHFA’s supervisory framework related to FHLBanks’ advances and
collateral risk management practices to be significant deficiencies in internal control within the
context of the audit objective. Additionally, FHFA-OIG identified other less significant matters
that came to its attention during the audit. These matters will be communicated separately in
writing to FHFA in an audit memorandum.

Internally, FHFA-OIG coordinated between its Office of Audits and its Office of Evaluations.
The Office of Evaluations also had ongoing assignments related to FHLBanks. FHFA-OIG’s
goal was to avoid duplicating document requests, reported findings, and reportable conditions.

FHFA-OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that audits be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for FHFA-OIG’s findings and
conclusions based on the audit objective. FHFA-OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions included herein, based on the audit
objective.




68
  As of September 30, 2011, credit unions and insurance companies represented 17% of FHLBanks’ total
membership and approximately 19% of total advances. Accordingly, FHFA-OIG excluded these institutions from
the scope of the audit.


            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           38
GLOSSARY OF TERMS

           Term                                                       Definition

 Advances                     An extension of credit from an FHLBank to a member or housing associate.
                              Financial institution regulators and examiners use the Uniform Financial
                              Institutions Rating System to evaluate a bank’s performance in six components
                              represented by the CAMELS acronym: Capital adequacy, Asset quality,
 CAMELS Rating
                              Management practices, Earnings performance, Liquidity position, and
                              Sensitivity to market risk. Each component and an overall composite score are
                              assigned a rating of 1 through 5 from least to greatest regulatory concern.
                              Assets pledged to an FHLBank to secure a member bank’s indebtedness to the
                              bank. Examples of assets pledged as collateral are: residential first lien
                              mortgage loans; securities representing a whole interest in residential first lien
 Collateral
                              mortgage loans; securities issued, insured, or guaranteed by the federal
                              government or a federal agency; and mutual fund shares comprised of eligible
                              securities, bank term deposits.
 Community
                              Private institutions that provide financial services dedicated to economic
 Development
                              development and community revitalization in underserved markets
 Financial Institutions
                              The individual rating assigned to each of the five components that FHFA
 Component Rating             examiners evaluate during an FHLBank examination. The rating ranges from
                              lowest to highest degree of supervisory concern from 1 to 4.
                              Overall rating of the bank that is based on an evaluation and rating of five key
                              components: corporate governance, market risk, credit risk, operational risk,
                              and financial condition and performance. The composite rating is not an
 Composite Rating             arithmetic average of the component ratings, but the relative importance of
                              each component is determined on a case-by-case basis and then a composite
                              score is derived subjectively. The rating ranges from lowest to highest degree
                              of supervisory concern from 1 to 4.
                              The potential that a borrower or counterparty will fail to meet its obligations in
 Credit Risk                  accordance with agreed terms. FHLBanks are to establish controls to mitigate
                              such risk.
                              Tools for resolving deficiencies identified within an FHLBank’s operations.
                              Tools range from informal to formal remedies. Formal remedies include
                              cease-and-desist orders, temporary cease-and-desist orders, civil money
 Enforcement Action
                              penalties, and suspension or removal orders. Informal remedies include board
                              of directors’ resolutions adopted by the institution, memoranda of
                              understanding, and written agreements.
 Federal Housing              FHFB was the predecessor agency to FHFA that was terminated by the
 Finance Board                Housing and Economic Recovery Act of 2008. It had supervisory oversight
 (FHFB)                       for FHLBanks from 1989 to 2008.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           39
           Term                                                   Definition
                              Haircut refers to actions taken by FHLBank management to reduce collateral
 Haircut
                              value, which can impact the borrowing capacity of member banks.
                              A supervisory activity to assess an activity, function, or program across all
                              12 FHLBanks. These reviews lend themselves to timely comparison of the
 Horizontal Review
                              banks’ operations, strategies, and policies. Through these reviews, FHFA can
                              identify best practices and share them.
 Matters Requiring            Listing of examination findings evaluated by examination staff to require the
 Attention                    attention of an FHLBank’s Board of Directors to address and resolve.
                              Any financial institution that has been approved for membership at an
 Member Bank
                              FHLBank and has purchased stock in the bank.
 Private-Label
                              Residential mortgage-backed securities in which the underlying loans or pools
 Mortgage Backed
                              of loans are not guaranteed by federal agencies or the Enterprises.
 Securities (PLMBS)
                              A suggested change to a policy, procedure, practice, or control to improve
 Recommendation(s)
                              performance or operations.
                              Any action or inaction that is contrary to prudent operation and that has
 Unsafe or Unsound            resulted in, or if continued could result in, abnormal loss or risk or damage to
 Practice, or                 the bank or the Office of Finance. Immediate corrective action is required. A
 Condition                    bank’s condition need not deteriorate to the brink of insolvency before a
                              practice or condition may be found to be unsafe or unsound.
                              An inadequate or otherwise unacceptable policy, procedure, or practice, or a
 Weakness                     lack of sufficient internal controls or risk management—requires corrective
                              action.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           40
APPENDIX A:
FHFA’s Management Response to Findings and Recommendations




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           41
            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           42
            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           43
            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           44
APPENDIX B:
FHFA-OIG’s Response to FHFA’s Comments

On May 10, 2012, FHFA provided comments to a draft of this report, agreeing with all of the
recommendations and identifying FHFA actions to address them. FHFA-OIG considers the
actions sufficient to resolve the recommendations, which will remain open until FHFA-OIG
determines that agreed upon corrective actions are completed and responsive to the
recommendations. FHFA-OIG has attached the Agency’s full response (see Appendix A), which
was considered in finalizing this report. Appendix C provides a summary of management’s
comments on the recommendations and the status of agreed-to corrective actions.

When agreeing to FHFA-OIG’s recommendations, FHFA opined that it considers the risks
associated with advances and collateral generally to be low, in part because no FHLBank has
incurred a credit loss on an advance to a member institution. Nonetheless, FHFA concurs that “a
nearly 80 year record of safe and sound advances lending is not enough to ensure future
performance.”

FHFA made two additional points in its comments that warrant clarification. First, FHFA stated
that FHFA-OIG’s report identifies no deficiencies in FHFA examination coverage or
shortcomings in FHLBank risk management that were overlooked by FHFA examiners. Second,
FHFA stated the FHFA-OIG report does not cite a single instance in which an FHFA examiner
failed to identify a deficient collateral risk management practice at an FHLBank or seek
remediation of any such deficiency. In contrast, the report addresses several enhancements to
FHFA’s supervisory framework including additional guidance, training, monitoring, access to
information, and coordination with bank regulators that were either overlooked by examiners or
not acted upon by management. Further, FHFA-OIG’s audit objective was to assess the
supervisory framework related to FHLBank advances and collateral risk management practices,
not to fulfill FHFA’s responsibility to perform examinations of the FHLBanks. Thus, FHFA-
OIG focused on how FHFA processed over 100 deficiencies that were identified in the horizontal
review and had not been previously identified by either the Agency’s routine examinations or its
supervisory framework.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           45
APPENDIX C:
Summary of FHFA’s Management Comments to the
Recommendations

This table presents the management response to the recommendations in FHFA-OIG’s report and
the status of the recommendations as of the date of report issuance.

                                                                 Expected
                           Corrective Action:                              Monetary Resolveda                   Open or
    Rec.                                                        Completion
                           Taken or Planned                                Benefits Yes or No                   Closedb
                                                                   Date

                FHFA agreed with this                           12/31/2012       $0             Yes            Open
                recommendation and plans to
                incorporate documentation of testing
                and verification into efforts already
      1.
                under way to develop an automated
                information system. The Agency
                estimates implementation by
                December 31, 2012.
                FHFA agreed with this                           12/15/2012       $0             Yes            Open
                recommendation. FHFA executive
                management will formally review
                each matter raised in the 2010 report
                and document the determinations
                regarding appropriate follow-up
      2.        action. The review will consider the
                appropriateness of these
                recommendations in light of
                developments since then at FHFA,
                FHLBanks, and in the market. The
                Agency estimates implementation by
                December 15, 2012.
                FHFA agreed with this                           6/30/2012        $0             Yes            Open
                recommendation. However, the
                Agency believes this is already
                routinely covered in its supervisory
                program but will formally advise
      3.
                FHLBanks of the need to assess their
                reliance on troubled members for
                advance growth. The Agency
                estimates implementation by
                June 30, 2012.

            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           46
                                                                 Expected
                           Corrective Action:                              Monetary Resolveda                   Open or
    Rec.                                                        Completion
                           Taken or Planned                                Benefits Yes or No                   Closedb
                                                                   Date

                FHFA agreed with this                           11/15/2012       $0             Yes            Open
                recommendation. Although the
                Agency believes it already has a
                robust offsite monitoring program and
                that this work is systematically shared
                with examination staff, due to this
                recommendation it will consider
                further enhancements to its offsite
      4.
                monitoring programs. If warranted,
                the Agency will update written
                policies and procedures to ensure
                appropriate offsite monitoring
                analyses are developed and shared
                with examination staff. The Agency
                estimates implementation by
                November 15, 2012.
                FHFA agreed with this                           9/30/2012        $0             Yes            Open
                recommendation. FHFA will re-
                engage with FBAs to seek avenues for
                enhanced communication on troubled
                FHLBank members. Specifically, the
                Agency will contact each FBA, alert
                them to FHFA-OIG’s
      5.
                recommendation and assess the
                current state of the Agency’s
                information sharing, and discuss
                options for enhancements that serve
                the mutual needs and responsibilities.
                The Agency estimates implementation
                by September 30, 2012.
                FHFA agreed with this                           9/30/2012        $0             Yes            Open
                recommendation. FHFA will continue
                to seek appropriate opportunities to
                participate with FFIEC consistent with
                its commitment in response to the
      6.        previous recommendation. The
                Agency will contact the Department
                of the Treasury and relevant
                Congressional Committees about
                FHFA’s inclusion in FFIEC. The
                Agency estimates implementation by
            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           47
                                                                 Expected
                           Corrective Action:                              Monetary Resolveda                   Open or
    Rec.                                                        Completion
                           Taken or Planned                                Benefits Yes or No                   Closedb
                                                                   Date

                September 30, 2012.
                FHFA agreed with this                           3/15/2013        $0             Yes            Open
                recommendation. The Agency will
                formally evaluate the idea of a global
                watch-list in consultation with DBR’s
                examiners-in-charge and supervision
                executives, DBR’s managers
                responsible for offsite monitoring, and
      7.        FHFA’s Supervision Committee.
                Specifically, the Agency will evaluate
                the merits of such a list, how it would
                be established, maintained and
                protected, and how it could be used to
                enhance supervision. The Agency
                estimates implementation by
                March 15, 2013.

a Resolved means: (1) Management concurs with the recommendation, and the planned, ongoing, and completed
  corrective action is consistent with the recommendation; (2) Management does not concur with the
  recommendation, but alternative action meets the intent of the recommendation; or (3) Management agrees to
  FHFA-OIG monetary benefits, a different amount, or no amount ($0). Monetary benefits are considered resolved
  as long as management provides an amount.
b Once FHFA-OIG determines that the agreed-upon corrective actions have been completed and are responsive to
  the recommendations, the recommendations can be closed.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           48
ADDITIONAL INFORMATION AND COPIES


For additional copies of this report:

             Call FHFA-OIG: 202-730-0880

             Fax your request: 202-318-0239

             Visit FHFA-OIG’s website: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

              Call our Hotline: 1-800-793-7724

              Fax us the complaint directly: 202-318-0358

              Email us at: oighotline@fhfa.gov

              Write to us: FHFA Office of Inspector General
                           Attn: Office of Investigation – Hotline
                           400 Seventh Street, S.W.
                           Washington, D.C. 20024




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-004 • June 1, 2012
This report contains nonpublic information and should not be disseminated outside FHFA without FHFA-OIG’s written approval.
                                                           49
